No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
HERMINIO PERALES-PEREZ,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

October 26, 2020

No. 20-10148
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Herminio Perales-Perez,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-246-1
Before King, Smith, and Wilson, Circuit Judges.
Per Curiam:*
Herminio Perales-Perez appeals his guilty plea conviction for illegal
reentry and the 70-month prison term and three-year supervised release term
that followed. See 8 U.S.C. § 1326(a), (b)(1). For the following reasons, we
AFFIRM.

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

No. 20-10148

We reject Perales-Perez’s assertion that the sentence imposed is
substantively unreasonable because his argument is purely conclusory,
unsupported by record citations, and essentially unbriefed.

Although

Perales-Perez contends that the sentence and the reasons given for it fail to
consider and give significant weight to mitigating factors, he does not identify
any such factors. We will not search the record to find support for PeralesPerez’s counseled brief. See Nicholas Acoustics & Specialty Co. v. H & M
Const. Co., 695 F.2d 839, 846–47 (5th Cir. 1983); see also Fed. R. App. P.
28(a)(8)(A). “Inadequately briefed issues are deemed abandoned.” United
States v. Stevens, 487 F.3d 232, 244 (5th Cir. 2007); see also United States v.
Cothran, 302 F.3d 279, 286 n.7 (5th Cir. 2002); Yohey v. Collins, 985 F.2d
222, 224–25 (5th Cir. 1993). Similarly, Perales-Perez’s one-line contention
that the district court relied solely, and thus improperly, on his criminal
history is deemed abandoned because it is conclusory and is merely
mentioned in passing without being developed into an argument. See Stevens,
487 F.3d at 242 n.1; Cothran, 302 F.3d at 286 n.7. We do not liberally
construe a counseled brief. Woodfox v. Cain, 609 F.3d 774, 792 (5th Cir.
2010).
Perales-Perez also contends that it was error to sentence him to a term
of imprisonment greater than two years and a term of supervised release
longer than one year for a violation of § 1326. He states that this issue raises
subsidiary issues, the first being whether the statutory enhancement
provisions in § 1326(b) are unconstitutional because Congress unequivocally
intended the enhancements to be sentencing factors, not elements of separate
offenses.

The second subsidiary issue is whether his guilty plea was

involuntary and violated Federal Rule of Criminal Procedure 11 because he
was not admonished that the prior felony provision of § 1326(b)(1) stated an
essential offense element that he had the right to have the government prove,
and a jury find, beyond a reasonable doubt. Perales-Perez concedes that any

2

No. 20-10148

relief in connection with these issues is foreclosed under Almendarez-Torres
v. United States, 523 U.S. 224, 226–27 (1998). He nevertheless raises them
to preserve them for further review.
AFFIRMED.

3

APPENDIX B

Case 4:19-cr-00246-A Document 32 Filed 01/31/20

Page 1 of 5 PageID 72

Wntteb ~tates Jltstrtct ~ourt

JAN 3 1 2020

Northern District of Texas
Fort Worth Division

CLERK, U.S. DISTRICT COURT
UNITED STATES OF AMERICA

§

By _____,,D~c,~iul~y-------

V.

§

Case Number: 4: 19-CR-246-A(Ol)

HERMINIO PERALES-PEREZ

§

JUDGMENT IN A CRIMINAL CASE
The government was represented by Assistant United States Attorney Michael Levi
Thomas. The defendant, HERMINIO PERALES-PEREZ, was represented by Federal Public
Defender through Assistant Federal Public Defender Jaidee Serrano.
The defendant pleaded guilty on September 20, 2019 to the one count indictment filed on
August 14, 2019. Accordingly, the court ORDERS that the defendant be, and is hereby,
adjudged guilty of such count involving the following offense:
Title & Section I Nature of Offense
8 U.S.C. § 1326(a) and (b)(l) Illegal Reentry After Deportation

Date Offense Concluded
January 20, 2019

Count
I

As pronounced and imposed on January 31, 2020, the defendant is sentenced as provided
in this judgment.
The court ORDERS that the defendant immediately pay to the United States, through the
Clerk of this Court, a special assessment of $100.00.
The court further ORDERS that the defendant shall notify the United States Attorney for
this district within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all fines, restitution, costs, and special assessments imposed by this Judgment
are fully paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
of this court, and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant's economic circumstances.
IMPRISONMENT
The court further ORDERS that the defendant be, and is hereby, committed to the
custody of the United States Bureau of Prisons to be imprisoned for a term of 70 months.
The defendant is remanded to the custody of the United States Marshal.

1

Case 4:19-cr-00246-A Document 32 Filed 01/31/20

Page 2 of 5 PageID 73

SUPERVISED RELEASE
The court further ORDERS that, upon release from imprisonment, the defendant shall be
on supervised release for a term of three (3) years. The court imposed a term of supervised
release because it will provide an added measure of deterrence and protection based on the facts
and circumstances of this case.
Pursuant to 18 U.S.C. §3583(d), as a condition of supervised release, upon the
completion of the sentence of imprisonment the defendant shall be surrendered by the Federal
Bureau of Prisons to a duly-authorized immigration official for deportation in accordance with
the established procedures provided by the Immigration and Nationality Act, 8 U.S.C. § 1101 et
seq. As a further condition of supervised release, if ordered deported the defendant shall remain
outside the United States.
In the event the defendant is not deported immediately upon release from imprisonment,
or should the defendant ever be within the United States during any portion of the term of
supervised release, the defendant shall comply with the following conditions of supervised
release:
1.

The defendant shall not unlawfully possess controlled substances.

2.

The defendant shall not commit another federal, state, or local crime.

3.

The defendant shall cooperate in the collection of DNA as directed by the U.S . Probation
Officer, as authorized by the Justice for All Act of 2004.

4.

The defendant shall refrain from any unlawful use of a controlled substance, submitting
to one drug test within 15 days of release from imprisonment and at least two periodic
drug tests thereafter, as directed by the probation officer pursuant to the mandatory drug
testing provision of the 1994 crime bill.

5.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.

Standard Conditions of Supervision
1.

The defendant shall report in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody of the
Bureau of Prisons.

2.

The defendant shall not possess a firearm, destructive device, or other dangerous weapon.

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission of the Court or U.S. Probation Officer.
2

Case 4:19-cr-00246-A Document 32 Filed 01/31/20

Page 3 of 5 PageID 74

5.

The defendant shall report to the U.S. Probation Officer as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written report within the first
five (5) days of each month.

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instructions of the U.S. Probation Officer.

7.

The defendant shall support his dependents and meet other family responsibilities.

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten (10) days prior to any change
in residence or employment.

10.

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substances, except as prescribed by a physician.

11.

The defendant shall not frequent places where controlled substances are illegally sold,
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit him at any time at home or
elsewhere and shall permit confiscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation officer within seventy-two (72) hours of being
arrested or questioned by a law enforcement officer.

15.

The defendant shall not enter into any agreement to act as an informer or a special agent
of a law enforcement agency without the permission of the court.

16.

As directed by the probation officer, the defendant shall notify third parties of risks that
may be occasioned by the defendant's criminal record or personal history or
characteristics, and shall permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement.

The court hereby directs the probation officer to provide defendant with a written
statement that sets forth all the conditions to which the term of supervised release is subject, as
contemplated and required by 18 U.S.C. § 3583(f).

3

Case 4:19-cr-00246-A Document 32 Filed 01/31/20

Page 4 of 5 PageID 75

The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.

STATEMENT OF REASONS
The "Statement of Reasons" and personal information about the defendant are set forth
on the attachment to this judgment.
Signed this the 31st day of January, 2020.

NMcBRYDE
ITED STATES DISTRICT

4

Case 4:19-cr-00246-A Document 32 Filed 01/31/20

Page 5 of 5 PageID 76

RETURN
I have executed the imprisonment part of this Judgment as follows:

Defendant delivered on
, 2020 to
a t - - - - - - - - - - - - - - - - - - - ' with a certified copy of this Judgment.
-~~~~~~·

-------~~----~

United States Marshal for the
Northern District of Texas

By_~--~----------~
Deputy United States Marshal

5

